No. 19-

 

IN THE
Supreme Court of the Hnited States

JAMES JOSEPH GARNER,
Petitioner,
Vv.
COLORADO,
Respondent.

On Petition for a Writ of Certiorari
to the Supreme Court of Colorado

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the foregoing
Petition for a Writ of Certiorari for contains _‘}.665 words, excluding
the parts of the document that are exempted by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and

correct.

Executed on July 15, 2019.

 

Brian H. Fletcher
Counsel for Petitioner
